Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   CONNECTICUT STATE
 MEDICAID FRAUD CONTROL
 UNIT: 2013 ONSITE REVIEW




                       Suzanne Murrin
                  Deputy Inspector General for
                   Evaluation and Inspections

                       September 2014
                       OEI-07-13-00540
EXECUTIVE SUMMARY: CONNECTICUT STATE MEDICAID FRAUD
CONTROL UNIT: 2013 ONSITE REVIEW
OEI-07-13-00540

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees the activities of all Medicaid Fraud
Control Units (MFCUs or Units). As part of this oversight, OIG conducts periodic
reviews of all Units and prepares public reports based on these reviews. The reviews
assess Unit performance in accordance with the 12 MFCU performance standards and
monitor Unit compliance with Federal grant requirements.

HOW WE DID THIS STUDY
We conducted an onsite review in October 2013. We based our review on an analysis of
data from seven sources: (1) a review of policies, procedures, and documentation related
to the Unit’s operations, staffing, and caseload; (2) a review of financial documentation;
(3) structured interviews with key stakeholders; (4) a survey of Unit staff; (5) structured
interviews with the Unit Director and supervisors; (6) an onsite review of case files; and
(7) an onsite observation of Unit operations.

WHAT WE FOUND
For fiscal years 2010 through 2012, the Connecticut Unit reported combined civil and
criminal recoveries of nearly $84 million and 20 criminal convictions. Our review
identified instances in which the Unit did not fully meet Federal regulations or
performance standards. Specifically, the Unit did not always maintain case files in an
effective manner. The Unit also lacked policies and procedures sufficient to ensure
timely completion of cases. Further, the Unit did not provide OIG with adequate
information to initiate exclusion of convicted individuals. Additionally, the Unit worked
on a case not related to Medicaid. The Unit’s vehicle expenditures were not properly
allocated, but the Unit otherwise maintained proper fiscal control of its resources. Lastly,
during the period we reviewed, the Unit did not regularly communicate and coordinate
with OIG to investigate and prosecute health care fraud.

WHAT WE RECOMMEND
The Unit should work with OIG’s MFCU oversight division to ensure compliance with
the 12 performance standards and adhere to Federal regulations. The Unit concurred with
all six of our recommendations.
TABLE OF CONTENTS
Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................5 

           For FYs 2010 through 2012, the Connecticut Unit reported 

           combined civil and criminal recoveries of nearly $84 million 

           and 20 criminal convictions .............................................................5

           The Unit did not always maintain case files in an effective
           manner..............................................................................................6 

           The Unit did not follow policies and procedures for case 

           management .....................................................................................6 

           The Unit did not provide OIG with adequate information to 

           initiate exclusion of convicted individuals ......................................7 

           Unit staff did not work exclusively on Unit-related matters............8 

           The Unit’s vehicle expenditures were not properly allocated, but 

           the Unit otherwise maintained proper fiscal control of its 

           resources ..........................................................................................9 

           During the period we reviewed, the Unit did not regularly 

           communicate and coordinate with OIG to investigate and 

           prosecute health care fraud ............................................................10 

           Other observations: Referrals from the State Medicaid agency ...10 

Conclusion and Recommendations ............................................................12 

Unit Comments and Office of Inspector General Response ......................14 

Appendixes ................................................................................................15 

           A: 2012 Revised Performance Standards .....................................15 

           B: 1994 Performance Standards....................................................22 

           C: Methodology ............................................................................26 

           D: Point Estimates and 95-Percent Confidence Intervals 

           Based on Reviews of Case Files ....................................................29 

           E: Investigations Opened and Closed By Provider Category 

           for Fiscal Years 2010 Through 2012 ..............................................30 

           F: Medicaid Fraud Control Unit Referrals by Referral Source 

           for Fiscal Years 2010 Through 2012 ..............................................32 

     G: Unit Comments ........................................................................33 

Acknowledgments......................................................................................37 

                   OBJECTIVE
                   To conduct an onsite review of the Connecticut State Medicaid Fraud
                   Control Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law.1 Pursuant to Title XIX of the SSA, each State
                   must maintain a certified Unit unless the Secretary of Health and Human
                   Services determines that operation of a Unit would not be cost effective
                   because (1) minimal Medicaid fraud exists in that State; and (2) the State
                   has other, adequate safeguards to protect Medicaid beneficiaries from
                   abuse and neglect.2 Currently, 49 States and the District of Columbia
                   (States) have created such Units.3 In Federal fiscal year (FY)4 2012,
                   combined Federal and State grant expenditures for the Units totaled
                   $217.3 million, and Units employed 1,901 individuals.
                   To carry out its duties and responsibilities in an effective and efficient
                   manner, each Unit must employ an interdisciplinary staff that consists of at
                   least an investigator, an auditor, and an attorney.5 Unit staff review
                   complaints provided by the State Medicaid agency and other sources and
                   determine the potential for criminal prosecution and/or civil action. In
                   FY 2012, the 50 Units obtained 1,337 convictions and 823 civil
                   settlements or judgments.6 That year, the Units reported recoveries of
                   more than $2.9 billion.7
                   The Unit must be in an office of the State Attorney General’s office,
                   another State government office with statewide prosecutorial authority, or
                   operate under a formal arrangement with the State Attorney General’s
                   office.8 Units are required to have either statewide authority to prosecute

                   1
                     Social Security Act (SSA) § 1903(q)(3).

                   2
                     SSA §§ 1902(a)(61). Regulations at 42 CFR § 1007.11(b)(1) add that the Unit’s 

                   responsibilities may include reviewing complaints of misappropriation of patients’ 

                   private funds in residential health care facilities. 

                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units.
                   4
                     FY references in this report are based on the Federal FY (October 1 through

                   September 30).

                   5
                     SSA § 1903(q)(6) and 42 CFR § 1007.13.

                   6
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                   Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                   March 7, 2013. 

                   7
                     Ibid. 

                   8
                     SSA § 1903(q)(1). 



Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                          1
                   cases or formal procedures to refer suspected criminal violations to an
                   office with such authority.9 In 44 States, the Units are located within
                   offices of State Attorneys General; in the remaining 6 States, including
                   Connecticut, the Units are located in other State agencies.10 Generally,
                   Units outside of the offices of State Attorneys General must refer cases to
                   other offices with prosecutorial authority.
                   Each Unit must be a single identifiable entity of State government, distinct
                   from the State Medicaid agency, and each Unit must develop a formal
                   agreement—i.e., a Memorandum of Understanding (MOU)—that
                   describes the Unit’s relationship with that agency.11
                   Oversight of the MFCU Program
                   The Secretary of HHS delegated to the Office of Inspector General (OIG)
                   the authority to both annually certify the Units and to administer grant
                   awards to reimburse States for a percentage of their costs of operating
                   certified Units.12 All Units are currently funded by the Federal
                   Government on a 75-percent matching basis, with the States contributing
                   the remaining 25 percent.13 To receive Federal reimbursement, each Unit
                   must submit an initial application to OIG.14 OIG reviews the application
                   and notifies the Unit if the application is approved and the Unit is
                   certified. Approval and certification are for a 1-year period; the Unit must
                   be recertified each year thereafter.15
                   Pursuant to Title XIX of the SSA, States must operate Units that
                   effectively carry out their statutory functions and meet program
                   requirements.16 OIG developed and issued 12 performance standards to
                   further define the criteria it applies in assessing whether a Unit is




                   9
                     SSA § 1903(q)(1). 

                   10
                      The Units share responsibility for protecting the integrity of the Medicaid program with

                   the section of the State Medicaid agency that functions as the Program Integrity Unit. 

                   Some States also employ a Medicaid Inspector General who conducts and coordinates the 

                   State agency’s activities to combat fraud, waste, and abuse in this area. 

                   11
                      SSA § 1903(q)(2) and 42 CFR § 1007.9(d).

                   12
                      The portion of funds reimbursed to States by the Federal Government for its share of

                   expenditures for the Federal Medicaid program, including the MFCUs, is called Federal

                   Financial Participation (FFP). 

                   13
                      SSA §§ 1903(a)(6)(B). 

                   14
                      42 CFR § 1007.15(a).

                   15
                      42 CFR § 1007.15(b) and (c).

                   16
                      SSA § 1902(a)(61). 


Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                         2
                   effectively carrying out statutory functions and meeting program
                   requirements.17 Examples of criteria include maintaining an adequate
                   caseload through referrals from several sources, maintaining an annual
                   training plan for all professional disciplines, and establishing policy and
                   procedure manuals to reflect the Unit’s operations. See Appendix A for
                   the 2012 performance standards used in this review and Appendix B for
                   the 1994 performance standards.
                   Connecticut State MFCU
                   The Connecticut Unit is located in the Office of the Chief State’s Attorney
                   within the Division of Criminal Justice and is one of seven State MFCUs
                   that are not contained within an Office of Attorney General. Although the
                   Connecticut Unit has jurisdiction over all criminal Medicaid fraud cases, it
                   is not authorized to prosecute civil matters and all civil matters are
                   referred to the Attorney General’s Office. For some civil referrals, the
                   Unit provides support to the Attorney General’s office, such as data
                   analysis and compiling and submitting data on behalf of the State for
                   “global” settlements.18 The Unit must approve of and sign all global civil
                   settlements as part of its membership and participation in NAMFCU. In
                   addition, the Unit reports to OIG the outcomes in civil recoveries of cases
                   worked by the Attorney General’s Office.
                   At the time of our review, the Unit’s 10 employees were located in
                   Rocky Hill, a suburb of Connecticut’s State capital, Hartford. For
                   FY 2012, the Connecticut Unit was authorized $1,229,548 in Federal
                   funds but expended a total of only $1,150,457 in combined Federal and
                   State funds. Total Medicaid expenditures in Connecticut increased from
                   $5.7 billion in FY 2010 to $6.7 billion in FY 2012.
                   The Unit receives referrals of fraud, abuse, or neglect from the State
                   Medicaid agency, the State Department of Public Health, the Attorney
                   General’s Office, and private citizens. The Unit reports to OIG only those
                   referrals that the Unit accepts.
                   The Unit director receives complaints and determines whether to consider
                   them as potential cases—in which case the director counts the complaint
                   as a referral—or to decline the complaint. All potential cases are entered
                   into the electronic case-management system, assigned a case number, and

                   17
                      OIG initially published performance standards in 1994 (59 Fed. Reg. 49080) and issued
                   revised standards on June 1, 2012. (See 77 Fed. Reg. 32645.) Although the
                   1994 Performance Standards were in effect during most of the review period, we apply
                   the 2012 performance standards where appropriate in the findings and report
                   recommendations.
                   18
                      “Global” cases are civil false-claims actions involving the U.S. Department of Justice
                   and other State MFCUs. The National Association of Medicaid Fraud Control Units
                   (NAMFCU) facilitates the settlement of global cases.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                       3
                   assigned a lead investigator, prosecutor, and Forensic Fraud Examiner.
                   The lead investigator may immediately open the case, or conduct a
                   preliminary investigation to determine whether to open the referral as a
                   case. If the referral is not opened as a case, the file will be closed and a
                   letter is sent to the entity that referred the complaint. If the referral is
                   opened as a case, the investigation continues.
                   Previous Review
                   In 2008, OIG conducted an onsite review of the Connecticut MFCU and
                   found that prior to December 2007, the Unit did not routinely include
                   interim investigative memorandums in its official case files to reflect the
                   progress made in investigation. At that time, the Unit concurred with OIG’s
                   assessment and stated that the Unit would incorporate a more detailed
                   process in the Unit’s policies and procedures to ensure that (1) the Unit
                   would routinely include in official Unit case files the interim investigative
                   memorandums documenting the progress of Unit investigations, and (2) Unit
                   investigative cases do “not linger.”

                   METHODOLOGY
                   We conducted an onsite review in October 2013. We based our review on
                   an analysis of data from seven sources: (1) a review of policies,
                   procedures, and documentation related to the Unit’s operations, staffing,
                   and caseload; (2) a review of financial documentation; (3) structured
                   interviews with key stakeholders; (4) a survey of Unit staff; (5) structured
                   interviews with the Unit Director and supervisors; (6) an onsite review of
                   case files; and (7) an onsite observation of Unit operations. Appendix C
                   provides a detailed methodology. Appendix D contains the point
                   estimates and 95-percent confidence intervals for the statistics in this
                   report.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)               4
                   FINDINGS
                   For FYs 2010 through 2012, the Connecticut Unit
                   reported combined civil and criminal recoveries of
                   nearly $84 million and 20 criminal convictions
                   The Unit reported total combined criminal and civil recoveries of nearly
                   $84 million for FYs 2010 through 2012. The majority of the recoveries
                   were obtained from global settlements, which accounted for 84 percent of
                   the Unit’s recoveries during the period of our review.19 (See Table 1 for
                   details regarding criminal and civil recoveries.) Although the Unit did not
                   have the authority to prosecute civil cases, the Unit reported to OIG
                   non-“global” civil recoveries that were made up of global settlements
                   obtained for Connecticut-only programs, and recoveries made by the
                   Attorney General’s Office as a result of the Unit’s criminal investigations.
                   Table 1: Connecticut MFCU Criminal and Civil Recoveries,
                   FYs 2010–2012

                    Type of                                                                               Total
                                                   FY 2010              FY 2011            FY 2012
                    Recovery                                                                         Recoveries

                    Criminal
                                                $1,127,194             $258,177           $174,496   $1,559,8676
                    Recoveries
                    Global Case
                                               $12,238,431          $38,688,571        $19,657,365   $70,584,367
                    Recoveries

                    Nonglobal
                                                $3,405,848           $7,312,920           $806,862   $11,525,630
                    Civil Recoveries

                        Total
                                               $16,771,473          $46,259,668        $20,638,723   $83,669,863
                        Recoveries

                   Source: OIG review of Unit self-reported QSRs and other data, FYs 2010–2012.



                   The number of opened cases decreased significantly during our review
                   period, from 110 cases in FY 2010 to 44 cases in FY 2012. The Unit
                   director reported that the Unit was significantly understaffed from
                   September 2011 to April 2012 as a result of staff retirements and that this
                   understaffing could have contributed to the decline in opened cases.
                   Referrals to the Unit also decreased by more than half during our review
                   period, from 89 in FY 2010 to 38 in FY 2012.
                   During the period we reviewed, the Unit closed 189 investigations,
                   charged 21 individuals, obtained 20 criminal convictions, and had




                   19
                      “Global” cases are civil false claims actions involving the U.S. Department of Justice
                   and other State MFCUs. The NAMFCU facilitates the settlement of global cases.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                                5
                   4 dismissals.20 See Appendix E for details on investigations opened and
                   closed in FYs 2010 through 2012, broken down by provider category.

                   The Unit did not always maintain case files in an
                   effective manner
                   According to the 2012 Performance Standard 7, the Unit must maintain
                   case files in an effective manner and ensure that case files include all
                   relevant facts and information. However, some of the case files we
                   reviewed lacked basic organizational structure and documentation
                   necessary to follow the progression of the case.
                   Our review identified that certain case files did not contain documentation
                   of relevant facts and information pertaining to the cases. In 14 percent of
                   case files, we were unable to determine when the Unit received the
                   referral. Further, Performance Standard 7(c) requires that significant
                   documents—such as charging documents and settlement agreements—be
                   included in the file. Several case files that we reviewed contained only the
                   initial complaint and opening and closing memoranda, with no other
                   information regarding the investigation.
                   In July 2013, subsequent to the period of cases we reviewed, the Unit
                   implemented a new policy to standardize its case files. This policy
                   requires that there be a single file for each matter under investigation.
                   Additionally, each file should contain a chronological record, inspector’s
                   notes, investigation reports, attachments, correspondence, data files,
                   evidence, miscellaneous documents, warrants, affidavits, and work
                   product.

                   The Unit did not follow policies and procedures for
                   case management
                   According to the 1994 Performance Standard 6 and the 2012 Performance
                   Standard 5, the Unit should have a continuous case flow. Further, the
                   1994 Performance Standard 6(c) and the 2012 Performance Standard 7(a)
                   state that supervisory reviews should be conducted periodically and noted
                   in the case file. These reviews should be conducted in consistence with
                   Unit policies and procedures. During our review period, the Unit had
                   policies and procedures in place to ensure timely opening of cases and
                   periodic supervisory reviews, but supervisors did not always follow these
                   policies.



                   20
                      These dismissals occurred upon the defendants’ completion of the pretrial diversion
                   program, a condition of which was full restitution.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                         6
                   Sixteen percent of cases were not opened in a period of time
                   consistent with Unit policy
                   The Unit’s policy requires that no more than 60 days elapse between the
                   receipt of a referral and the opening of either a case or a “preliminary
                   investigation” period.21 For the 86 percent of cases for which we could
                   determine when the Unit received the referral, our review found that
                   16 percent of referrals did not result in the opening of a case or the
                   beginning of a preliminary investigation within that 60-day timeframe.
                   These 16 percent of referrals had a median time of 83 days between when
                   the referral was received and when the case was opened or the preliminary
                   investigation was begun. The Unit director reported that the Unit was
                   significantly understaffed from September 2011 to April 2012 as a result
                   of staff retirements and that this understaffing could have contributed to
                   the delay in opening cases.
                   Supervisory reviews were not conducted in a timeframe
                   consistent with Unit policy
                   The Unit’s policy during the period we reviewed was to conduct
                   supervisory case file reviews once every 3 months. The Unit policy states
                   this is to “ensure that cases are progressing at a reasonable pace.”
                   However, for 82 percent of cases that had been open long enough to
                   warrant a supervisory review and that had been determined by the Unit
                   director to be full case investigations, the files lacked documentation of
                   supervisory reviews that should have taken place under Unit policy. The
                   Unit policy from July 2013 increased the frequency of the required
                   supervisory reviews to once a month.
                   An additional three cases, identified as preliminary investigations by the
                   Unit director, remained open for more than 3 months. There is no policy
                   or procedure for supervisory reviews of such cases because it is the
                   supervisor who conducts preliminary investigations. These three cases
                   remained open for 141, 190, and 439 days.

                   The Unit did not provide OIG with adequate
                   information to initiate exclusion of convicted
                   individuals
                   According to the 1994 Performance Standard 8(d) and the
                   2012 Performance Standard 8(f), the Unit must transmit to OIG, for
                   purposes of program exclusion, all pertinent information on Unit

                   21
                     After our onsite review, the Unit director informed us that a revised MOU (effective
                   January 17, 2014) with the State Medicaid Agency established a 45-day timeframe
                   between when a referral is received and when a case should be opened or a preliminary
                   investigation should begin.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                         7
                   convictions within 30 days of sentencing, including charging documents,
                   plea agreements, and sentencing orders. During the period we reviewed,
                   the Unit obtained 20 convictions of 19 individuals. However, OIG found
                   that the Unit did not transmit documentation sufficient to exclude 14 of
                   these 19 individuals, and for the remaining 5 individuals, the Unit
                   transmitted no documentation to OIG.
                   The Unit’s protocol is to send to OIG a completed electronic form for each
                   conviction including name; Social Security number; name of the court;
                   docket/court file number; statutory offense(s) and count(s); and a narrative
                   description of the act(s) or omission(s) on which the conviction was based.
                   The 2012 Performance Standard 8(f) also specifies that the MFCU should
                   send OIG copies of Judgment and Sentence or similar court documents.
                   For the 14 cases with incomplete information, OIG found that the Unit did
                   not provide actual court documents showing conviction and sentencing.
                   Also, as of May 2014, the Unit director had provided no documentation to
                   OIG on the five remaining convicted individuals.
                   Unit staff did not work exclusively on Unit-related
                   matters
                   According to the 1994 Performance Standard 1 and the 2012 Performance
                   Standard 1, the Unit must conform to all applicable statutes, regulations,
                   and policy directives. Further, according to the Medicaid statute and
                   Federal regulations, the Unit may receive FFP only for fraud
                   investigations that involve allegations of fraud in the administration of the
                   Medicaid program, in the provision of Medicaid services, or in the
                   activities of Medicaid providers.22
                   The Unit investigated one case in our sample that was
                   unrelated to Medicaid
                   We identified an investigation that involved a drug representative who was
                   allegedly forging doctors’ signatures and obtaining samples of drugs. The
                   suspect was charged with six counts of forgery. This was not a Medicaid
                   case because no claims were made to the Medicaid program in connection
                   with the activity. Unit staff engaged in investigative activity on the case
                   from May 20, 2007, through December 1, 2009. The Unit director
                   acknowledged that Unit staff should not have worked on this case; the
                   case was opened by the previous director, who left in November 2007.




                   22
                        SSA § 1903(q)(3) and 42 CFR §§ 1007.11(a) and 1007.19(d).

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)            8
                   The Unit does not maintain sufficient documentation to
                   support that it works exclusively on Unit-related matters
                   According to Federal regulations and OIG Policy Transmittal 89-1,23
                   professional staff from the Unit must be “full-time employees” to receive
                   Federal reimbursement.24 The full-time employee policy requires that a
                   covered employee work exclusively on Unit matters. In addition, pursuant
                   to Federal regulations, a Unit may claim Federal reimbursement only for
                   costs attributable to the establishment and operation of the Unit. During
                   the review period, a review of the Unit’s vehicle usage documentation
                   identified instances of at least one employee performing non-MFCU
                   related work (e.g., traffic stops, motorist assists). The Unit director stated
                   that such non-MFCU work was performed outside the Medicaid work day
                   and at no cost to the MFCU grant. We were unable to determine,
                   however, whether the non-MFCU work was performed during a normal
                   workday or during evening or weekend hours, since (a) the Unit’s vehicle
                   usage documentation did not always identify the time of day these
                   activities occurred and (b) the Unit’s salary accounting records do not list
                   the specific hours or MFCU cases investigated during an employee
                   workday. Because of this lack of documentation, we were unable to
                   determine whether the Unit claimed personnel costs for non-MFCU work
                   performed by Unit professional staff.
                   The Unit’s vehicle expenditures were not properly
                   allocated, but the Unit maintained proper fiscal control
                   of its resources
                   According to the 1994 Performance Standard 1 and the 2012 Performance
                   Standard 1, the Unit must conform to all applicable statutes, regulations,
                   and policy directives, including Federal cost principles contained in
                   2 CFR, part 225.25 For Federal funding to be allocated, costs must be
                   properly chargeable or assignable in accordance with the relative benefits
                   received.26 Contrary to Federal regulations, the Unit did not properly
                   allocate vehicle maintenance and depreciation costs.



                   23
                      OIG Policy Transmittal 89-1 was in effect during our review period. On June 3, 2014,
                   OIG issued State Fraud Policy Transmittal No. 2014-1, which superseded Policy
                   Transmittal 89-1 regarding the employment of full-time and part-time employees by the
                   Units.
                   24
                      42 CFR § 1007.19(e)(4). “Professional staff” includes attorneys, investigators,
                   auditors, and managers. OIG Policy Transmittal 89-1.

                   25
                      2 CFR pt. 225 establishes principles for determining the allowable costs incurred by

                   State, local, and federally recognized Indian tribal governments (governmental units) 

                   under grants, cost reimbursement contracts, and other agreements with the Federal

                   Government. 

                   26
                      2 CFR pt. 225, Appendix A (C)(3)(a).

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                       9
                   The Division of Criminal Justice authorizes police inspectors to use
                   assigned vehicles while off duty. However, the Unit claimed 100 percent
                   of the vehicle maintenance and depreciation expenditures for Federal
                   reimbursement, including the use of the vehicles while off duty.
                   Therefore, off-duty use occurred for which the Federal government did not
                   receive any relative benefits. As a result, the Unit overclaimed vehicle
                   maintenance and depreciation expenditures.
                   Further, according to the 1994 Performance Standard 11 and the
                   2012 Performance Standard 11, the Unit director should exercise proper
                   fiscal control over the Unit’s resources. From FYs 2010 through 2012,
                   our review found that the Unit reported program income in accordance
                   with applicable Federal requirements and maintained adequate internal
                   controls related to accounting, budgeting, personnel, procurement,
                   property, and equipment. During the review period, most of the Unit’s
                   expenditures that we examined represented allowable costs in accordance
                   with applicable Federal requirements.
                   During the period we reviewed, the Unit did not
                   regularly communicate and coordinate with OIG to
                   investigate and prosecute health care fraud
                   42 CFR § 1007.11(e) requires units to cooperate with OIG and other
                   Federal agencies in the investigation and prosecution of Medicaid and
                   other health care fraud. However, OIG reported having irregular, and in
                   some instances limited, communication with the Unit for extended periods
                   of time during the review period. According to Unit recertification
                   documents, joint OIG-MFCU work on cases declined over the period we
                   reviewed, from 30 cases in 2010 to 13 cases in 2012. Following this
                   period, OIG and Unit staff reported that relations between OIG and the
                   Unit were improving.

                   Other observation: Referrals from the State Medicaid
                   agency
                   According to the 1994 Performance Standard 4 and the 2012 Performance
                   Standard 4, the Unit should take steps to ensure that it maintains an
                   adequate volume and quality of referrals from the State Medicaid agency
                   and other sources. During FYs 2010–2012, the Unit received only
                   22 referrals from the State Medicaid agency and accepted 16 referrals.
                   The Unit director reported a low volume of referrals from the State
                   Medicaid agency. State Medicaid agency staff attributed the low volume
                   of referrals to insufficient staffing. See Appendix F for more information
                   on referrals by referral source.


Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)         10
                   In an attempt to address the low volume of referrals, the Unit director and
                   Unit staff collaborated with State Medicaid agency staff to develop an
                   “Immediate Advisement” protocol, which allows the State Medicaid
                   agency to informally notify the Unit of a potential fraud case prior to
                   making a formal referral. The Unit integrated this protocol into its
                   policies and procedures effective January 1, 2013. The Unit director
                   reported that the protocol increased the volume of potential cases that the
                   State Medicaid agency identified.




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)          11
                   CONCLUSION AND RECOMMENDATIONS
                   For FYs 2010 through 2012, the Unit reported combined civil and criminal
                   recoveries of nearly $84 million. During the review period, the Unit
                   closed 189 investigations with 21 individuals charged, obtained
                   20 criminal convictions, and had 4 dismissals.
                   However, our review identified instances in which the Unit did not fully
                   meet performance standards and adhere to Federal regulations.
                   Specifically, the Unit did not always maintain case files in an effective
                   manner. The Unit also lacked policies and procedures sufficient to ensure
                   timely completion of cases. Further, the Unit did not provide OIG with
                   adequate information to initiate exclusion of convicted individuals.
                   Additionally, the Unit worked on a case not related to Medicaid. Our
                   review determined that the Unit maintained proper fiscal control of its
                   resources, but the Unit’s vehicle expenditures were not properly allocated.
                   Lastly, during the review period, the Unit did not always communicate
                   and coordinate with OIG on a regular basis to investigate and prosecute
                   health care fraud.
                   We recommend that the Connecticut Unit:
                   Ensure that case files are maintained in an effective manner
                   The Unit should maintain all case files in an effective manner and ensure
                   that case files include all relevant facts and information necessary to
                   follow the progression of the case.
                   Adhere to Unit policies and procedures for case management
                   The Unit should ensure that complaints referred to the Unit are opened and
                   investigated, if appropriate, within the 45-day timeframe established in the
                   Unit’s new MOU. The Unit should ensure that all case files contain
                   documentation of supervisory reviews in accordance with Unit policy.
                   Additionally, the Unit should develop policies and procedures related to
                   processing cases that are in “preliminary investigation” status.
                   Refer individuals for exclusion to OIG with the appropriate
                   information for exclusion
                   The Unit should ensure that individuals convicted of fraud, abuse, and/or
                   neglect are reported to OIG within 30 days of their sentencing, in
                   accordance with 2012 Performance Standard 8(f). This referral should
                   include information necessary for exclusion, including available court
                   documents recording the conviction and sentencing of the defendant.




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)            12
                   Ensure Unit professional staff perform only Unit-related duties
                   in accordance with performance standards and Federal
                   regulations
                   The Unit should not investigate cases outside the scope of the Federal
                   grant and should work with OIG to identify the staff hours and related
                   expenditures that should be repaid. The Unit should develop internal
                   controls to document that professional staff work only on MFCU-related
                   matters while on duty.
                   Properly allocate vehicle costs
                   The Unit should institute a policy to ensure that maintenance and
                   depreciation expenditures that are not related to allowable MFCU
                   activities are not allocated to the Federal grant.
                   Regularly communicate and coordinate with OIG to investigate
                   and prosecute Medicaid fraud
                   The Unit should continue to improve cooperation with OIG to investigate
                   and prosecute Medicaid fraud.




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)         13
                   UNIT RESPONSE AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Connecticut Unit concurred with all six of our recommendations.
                   The Unit concurred with our recommendation that it ensure that case files
                   are maintained in an effective manner. The Unit stated that in July 2013, it
                   implemented a new policy designed to ensure that 100 percent of the files
                   are dated and organized correctly.
                   The Unit concurred with our recommendation that it adhere to its policies
                   and procedures for case management. The Unit stated that it has already
                   taken steps to cure lapses in supervisory review documentation by
                   requiring the supervisor who reviews investigations to forward written
                   documentation to the director for approval before filing. Further, the Unit
                   stated that it will adjust policy and procedures for cases in “preliminary
                   investigation” status.
                   The Unit concurred with our recommendation that it refer individuals for
                   exclusion to OIG with the appropriate information for exclusion.
                   The Unit stated that it provides OIG with adequate information to initiate
                   the exclusion of convicted individuals. We wish to clarify that if the Unit
                   were to provide OIG with a certified copy of the court document called an
                   Information, this would be sufficient to initiate an exclusion.
                   The Unit concurred with our recommendation that it ensure that its
                   professional staff perform only Unit-related duties in accordance with
                   performance standards and Federal regulations.
                   The Unit stated that its documentation is adequate to demonstrate when
                   professional staff are working in the Unit and when they are not, and
                   added that the examples we provided involved hours that fell outside of
                   the regular Unit workday. OIG continues to find that documentation of
                   non-Unit work does not contain discernible hours for such incidents;
                   further, Unit timecards do not contain discernible start and end
                   times. Therefore, we advise the Unit to improve its documentation.
                   The Unit concurred with our recommendation that it properly allocate
                   vehicle costs. The Unit will institute a policy that maintenance and
                   depreciation expenditures related to the night and weekend usage of
                   assigned State vehicles not be allocated to the Federal grant.
                   The Unit concurred with our recommendation that it regularly
                   communicate and coordinate with OIG to investigate and prosecute
                   Medicaid fraud. The Unit agreed that the working relationship has
                   improved, and said that it will do its part to continue the positive trend.
                   The full text of the Unit’s comments is provided in Appendix G.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)              14
                   APPENDIX A
                   2012 Revised Performance Standards27
                   1. 	A unit conforms with all applicable statutes, regulations, and
                       policy directives, including:
                          a.	 Section 1903(q) of the Social Security Act, containing the basic
                              requirements for operation of a MFCU;
                          b.	 Regulations for operation of a MFCU contained in 42 CFR part
                              1007;
                          c.	 Grant administration requirements at 45 CFR part 92 and Federal
                              cost principles at 2 CFR part 225;
                          d.	 OIG policy transmittals as maintained on the OIG Web site; and
                          e.	 Terms and conditions of the notice of the grant award.
                   2. 	A Unit maintains reasonable staff levels and office locations in
                       relation to the State’s Medicaid program expenditures and in
                       accordance with staffing allocations approved in its budget.
                          a.	 The Unit employs the number of staff that is included in the Unit’s
                              budget estimate as approved by OIG.
                          b.	 The Unit employs a total number of professional staff that is
                              commensurate with the State’s total Medicaid program
                              expenditures and that enables the Unit to effectively investigate
                              and prosecute (or refer for prosecution) an appropriate volume of
                              case referrals and workload for both Medicaid fraud and patient
                              abuse and neglect.
                          c.	 The Unit employs an appropriate mix and number of attorneys,
                              auditors, investigators, and other professional staff that is both
                              commensurate with the State’s total Medicaid program
                              expenditures and that allows the Unit to effectively investigate and
                              prosecute (or refer for prosecution) an appropriate volume of case
                              referrals and workload for both Medicaid fraud and patient abuse
                              and neglect.
                          d.	 The Unit employs a number of support staff in relation to its
                              overall size that allows the Unit to operate effectively.
                          e.	 To the extent that a Unit maintains multiple office locations, such
                              locations are distributed throughout the State, and are adequately



                   27
                        77 Fed. Reg. 32645, June 1, 2012.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                 15
                            staffed, commensurate with the volume of case referrals and
                            workload for each location.
                   3. 	A Unit establishes written policies and procedures for its
                       operations and ensures that staff are familiar with, and adhere to,
                       policies and procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its 

                           operations. 

                       c.	 Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                   4. 	A Unit takes steps to maintain an adequate volume and quality of
                       referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).



Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)           16
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit,
                           consistent with patient confidentiality and consent. Pertinent
                           agencies vary by State but may include licensing and certification
                           agencies, the State Long Term Care Ombudsman, and adult
                           protective services offices.
                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (d) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                   5. 	A Unit takes steps to maintain a continuous case flow and to
                       complete cases in an appropriate timeframe based on the
                       complexity of the cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                   6. 	A Unit’s case mix, as practicable, covers all significant provider
                       types and includes a balance of fraud and, where appropriate,
                       patient abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)              17
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.
                   7. 	A Unit maintains case files in an effective manner and develops a
                       case management system that allows efficient access to case
                       information and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of


Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)               18
                                      recoveries and the types of relief obtained through civil
                                      judgments or prefiling settlements.
                   8. 	A Unit cooperates with OIG and other Federal agencies in the
                       investigation and prosecution of Medicaid and other health care
                       fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                       c.	 The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                       d.	 For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                   9. 	A Unit makes statutory or programmatic recommendations, when
                       warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.


Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)               19
                       b.	 The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies
                           responsible for Medicaid operations or funding. The Unit monitors
                           actions taken by the State legislature and the State Medicaid or
                           other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its MOU with the State Medicaid 

                         agency to ensure that it reflects current practice, policy, and 

                         legal requirements. 

                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare
                           & Medicaid Services (CMS).
                       d.	 Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                   11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                       b.	 The Unit maintains an equipment inventory that is updated 

                           regularly to reflect all property under the Unit’s control. 

                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in
                           45 CFR 92.20.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)           20
                   12. 	A Unit conducts training that aids in the mission of the Unit.
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)              21
                   APPENDIX B
                   1994 Performance Standards28
                   1. 	A Unit will be in conformance with all applicable statutes,
                       regulations and policy transmittals. In meeting this standard, the
                       Unit must meet, but is not limited to, the following requirements:
                          a.	 The Unit professional staff must consist of permanent employees
                              working full-time on Medicaid fraud and patient abuse matters.
                          b.	 The Unit must be separate and distinct from the State Medicaid
                              agency.
                          c.	 The Unit must have prosecutorial authority or an approved formal
                              procedure for referring cases to a prosecutor.
                          d.	 The Unit must submit annual reports, with appropriate 

                              certifications, on a timely basis.

                          e.	 The Unit must submit quarterly reports on a timely basis.
                          f.	 The Unit must comply with the Americans with Disabilities Act,
                              the Equal Employment opportunity requirements, the Drug Free
                              workplace requirements, Federal lobbying restrictions, and other
                              such rules that are made conditions of the grant.
                   2. 	A Unit should maintain staff levels in accordance with staffing
                       allocations approved in its budget. In meeting this standard, the
                       following performance indicators will be considered:
                          a.	 Does the Unit employ the number of staff that was included in the
                              Unit’s budget as approved by the OIG?
                          b.	 Does the Unit employ the number of attorneys, auditors, and
                              investigators that were approved in the Unit’s budget?
                          c.	 Does the Unit employ a reasonable size of professional staff in
                              relation to the State’s total Medicaid program expenditures?
                          d.	 Are the Unit office locations established on a rational basis and are
                              such locations appropriately staffed?
                   3. 	A Unit should establish policies and procedures for its operations,
                       and maintain appropriate systems for case management and case
                       tracking. In meeting this standard, the following performance
                       indicators will be considered:
                          a.	 Does the Unit have policy and procedure manuals?



                   28
                        59 Fed. Reg. 49080, Sept. 26, 1994.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)              22
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?
                   4. 	A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the State Medicaid agency and
                       other sources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit work with the State Medicaid agency to ensure
                           adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud
                           referrals?
                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                   5. 	A Unit’s case mix, when possible, should cover all significant
                       provider types. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the
                           proportion of Medicaid expenditures for particular provider
                           groups?
                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                   6. 	A Unit should have a continuous case flow, and cases should be
                       completed in a reasonable time. In meeting this standard, the
                       following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)             23
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                   8. 	A Unit will cooperate with the OIG and other Federal agencies,
                       whenever appropriate and consistent with its mission, in the
                       investigation and prosecution of health care fraud. In meeting this
                       standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                   9. 	A Unit should make statutory or programmatic recommendations,
                       when necessary, to the State government. In meeting this standard,
                       the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State’s statutes when necessary and appropriate
                           to do so?
                       b.	 Does the Unit provide program recommendations to State 

                           Medicaid agency when appropriate? 



Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)             24
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                    10. 	A Unit should periodically review its MOU with the State
                         Medicaid agency and seek amendments, as necessary, to ensure
                         it reflects current law and practice. In meeting this standard, the
                         following performance indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                   11. 	The Unit director should exercise proper fiscal control over the
                        Unit resources. In meeting this standard, the following performance
                        indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                   12. 	A Unit should maintain an annual training plan for all
                        professional disciplines. In meeting this standard, the following
                        performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff add to the mission of the
                           Unit?




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)             25
                   APPENDIX C
                   Methodology
                   Data collected from the seven sources below was used to describe the
                   caseload and assess the performance of the Unit.
                   Data Collection
                   Review of Unit Documentation. Prior to the onsite visit, we analyzed
                   information from several sources regarding how the Unit investigated
                   Medicaid cases and referred them for prosecution. Specifically, we
                   collected and analyzed information about the number of referrals the Unit
                   received, the number of investigations the Unit opened and closed, the
                   outcomes of those investigations, and the Unit’s case mix. We also
                   collected and analyzed information about the number of cases that the
                   Unit referred for prosecution and the outcomes of those prosecutions. We
                   gathered this information from several sources, including the Unit’s QSRs,
                   its annual reports, its recertification questionnaire, its policy and
                   procedures manuals, its MOU with the State Medicaid agency, and the
                   2008 OIG report on the previous onsite review. Additionally, we
                   confirmed with the Unit director that the information we had was current
                   as of October 2013, and as necessary, we requested any additional data or
                   clarification.
                   Review of Fiscal Control. We reviewed the Unit’s control over its fiscal
                   resources to identify any internal control issues or other issues involving
                   use of resources. Prior to the onsite review, we reviewed the Unit’s
                   financial policies and procedures; its response to an internal control
                   questionnaire; and documents (such as financial status reports) related to
                   MFCU grants. During the onsite review, we reviewed a sample of the
                   Unit’s purchase and travel transactions. In addition, we reviewed vehicle
                   records, the equipment inventory, and a sample of time and effort records.
                   Interviews With Key Stakeholders. In September 2013, we interviewed key
                   stakeholders, such as officials in the United States Attorneys’ Offices, the
                   Attorney General’s Office, and other agencies that interacted with the Unit
                   (i.e., the State Department of Public Health, the State Department of Social
                   Services, the Office of the State Long Term Care Ombudsman, and the State
                   Bureau of Aging). We focused these interviews on the Unit’s relationship
                   and interaction with OIG and other Federal and State authorities, and we
                   identified opportunities for improvement. We used the information collected
                   from these interviews to develop subsequent interview questions for Unit
                   management.



Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)          26
                   Survey of Unit Staff. In September 2013, we conducted an online survey
                   of all nonmanagerial Unit staff within each professional discipline
                   (i.e., investigators, auditors, and attorneys) as well as support staff. The
                   response rate was 100 percent. Our questions focused on operations of the
                   Unit, opportunities for improvement, and practices that contributed to the
                   effectiveness and efficiency of Unit operations and/or performance. The
                   survey also sought information about the Unit’s compliance with
                   applicable laws and regulations.
                   Onsite Interviews With Unit Management. We conducted structured
                   interviews with the Unit’s management in October 2013. We interviewed
                   the Unit director (who also served as the Unit’s lead attorney) and the
                   supervisory investigator. We asked these individuals to provide additional
                   information to better understand the Unit’s operations and clarify
                   information obtained from other data sources. Finally, we discussed the
                   status of their actions with respect to recommendations from the
                   2008 report.
                   Onsite Review of Case Files and Other Documentation. The Unit
                   provided a list of 246 cases that were open at any point during FYs 2010
                   through 2012. We excluded from our analysis 68 of these cases that the
                   Unit had categorized as “global.” We then selected a simple random
                   sample of 100 cases from the remaining 178 cases. We reviewed all
                   sampled case files for documentation of supervisory reviews for the
                   opening and closing (as appropriate) of cases, as well as to see whether
                   supervisors conducted periodic case file reviews. From these 100 case
                   files, we selected a further simple random sample of 50 files for a more
                   in-depth review of selected issues, such as the timeliness of investigations
                   and case development. Subsequent to our review, we removed one case
                   from our sample because it was a case that had been assigned a new
                   number when it was reopened following a parole violation. We projected
                   the results of our review of the 99 case files to the population of Unit
                   cases.
                   Onsite Review of Unit Operations. During our October 2013 site visit, we
                   reviewed the Unit’s workspace and operations. Specifically, we visited
                   the Unit headquarters in the State capital. While onsite, we observed the
                   Unit’s offices and meeting spaces, security of data and case files, location
                   of select equipment, and the general functioning of the Unit.
                   Data Analysis
                   We analyzed data to identify any opportunities for improvement and any
                   instances in which the Unit did not fully meet the performance standards
                   or was not operating in accordance with laws, regulations, and policy


Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)           27
                   transmittals.29 In addition, we noted practices that appeared to be
                   beneficial to the Unit. We based these observations on statements from
                   Unit staff, data analysis, and our own judgment. We did not
                   independently verify the effectiveness of these practices, but included the
                   information because it may be useful to other Units in their operations.




                   29
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu.

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                         28
                       APPENDIX D
                       Point Estimates and 95-Percent Confidence Intervals Based on
                       Reviews of Case Files
                       We calculated confidence intervals for key data points for our reviews of
                       case files. The sample sizes, point estimates, and 95-percent confidence
                       intervals are given for the each of the following:
 Table D-1: Confidence Intervals for Case File Review Data

                                                        Sample
 Data Element Description                                                Point Estimate             95-Percent Confidence Interval
                                                          Size

 Case files lacking documentation of when
                                                              99                    14.1%                                 10.1%–19.5%
 the referrals were received by the Unit

 Case files were not opened within 60 days
                                                              85                   16.5%*                                 11.8%–22.5%
 from receipt of a referral
 Case files lacking documentation of
 supervisory reviews consistent with Unit                   51**                    82.4%                                 74.1%–88.4%
 policy
*The actual percentage of files for cases not opened within 60 days of receipt is 16.47 percent. The number 16.47 rounds to 16.5. As a

whole number, however, this percentage rounds to 16 percent. 

**We reviewed only the files for cases that were open for longer than 3 months. The review of one case file did not indicate whether the

periodic supervisory reviews were consistent with Unit policy, so that case file was excluded. 

Source: OIG analysis of Connecticut’s MFCU case files, 2014. 





Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                                                         29
                     APPENDIX E
                     Investigations Opened and Closed By Provider Category for
                     FYs 2010 Through 2012
  Table E-1: Fraud Investigations
   Provider Category                              FY 2010                  FY 2011              FY 2012

   Facilities                               Opened       Closed      Opened       Closed   Opened    Closed

      Hospitals                                     3           3           0          0        0                0

      Nursing Facilities                            3           4            3         2        0                1
      Other Long-Term Care
                                                    0           0            0         0        0                0
      Facilities
      Substance Abuse Treatment
                                                    0           0            0         0        0                0
      Centers
      Other                                         0           0            0         0        0                0

     Subtotal                                       6           7            3         2        0                1

   Practitioners                             Opened       Closed      Opened      Closed   Opened         Closed
      Doctors of Medicine or
                                                    8           5            7         6        6                5
      Osteopathy

      Dentists                                      3           3            3         2        4                1

      Podiatrists                                   0           0            0         0        0                0

      Optometrists/Opticians                        1           1            1         1        0                0

      Counselors/Psychologists                      3           3            1         2        1                0

      Chiropractors                                 0           0            1         0        0                1

      Other                                         1           1            1         0        1                1

     Subtotal                                      16          13          14         11       12                8

   Medical Support                           Opened       Closed      Opened      Closed   Opened         Closed

      Pharmacies
                                                    0           2            4         3        2                2
      Pharmaceutical
      Manufacturers                                17          11          11         19        3                4
       Suppliers of Durable Medical
       Equipment and/or Supplies                    8           5            5         4        2                4
      Labs
                                                    1           1            0         3        0                0
      Transportation Services
                                                    1           1            0         0        0                0
      Home Health Care Agencies
                                                    3           1            3         3        1                2
      Home Health Care Aides
                                                    2           7            2         5        1                1
      Nurses, Physician’s Assistants,
      Nurse Practitioners, Certified
      Nurse Aides                                   1           1            0         1        3                4
      Radiologists
                                                    0           0            0         0        0                0
      Medical Support—Other
                                                    1           1            1         0        2                4
     Subtotal                                      34          30          26         38       14             21




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                         30
  Table E-1 (Continued): Fraud Investigations
   Program Related                           Opened         Closed        Opened       Closed   Opened        Closed

      Managed Care                                   0             0               1        0        0                0

      Medicaid Program
                                                     0             0               0        0        0                0
      Administration

      Billing Company                                0             0               0        0        0                0

      Other                                          6             7               3        4        0                1

     Subtotal                                        6             7               4        4        0                1

     Total Provider Categories                      62           57            47          55       26            31

   Source: OIG analysis of Unit-submitted documentation, FYs 2010–2012.

  Table E-2: Patient Abuse and Neglect Investigations

   Provider Category                              FY 2010                     FY 2011               FY 2012


                                           Opened         Closed          Opened       Closed   Opened       Closed

      Nursing Facility                             19            23                4        2            9        5

      Other Long-Term Care                          2             2                1        1            0        0
       Nurses, Physician’s
       Assistants, Nurse
                                                    0             1                0        0            0        0
       Practitioners, Certified Nurse
       Aides
      Home Health Aides                             1             0                0        1            0        0

      Other                                         2             3                4        2            2        3

     Total                                         24            29                9        6        11           8

   Source: OIG analysis of Unit-submitted documentation, FYs 2010–2012.

  .Table   E-3: Patient Funds Investigations

   Provider Category                              FY 2010                     FY 2011               FY 2012


                                           Opened         Closed          Opened       Closed   Opened       Closed

      Nondirect Care                                2             1                0        0            0        1
       Nurses, Physician’s
       Assistants, Nurse
                                                    0             0                0        0            0        0
       Practitioners, Certified Nurse
       Aides
      Home Health Aides                             0             0                0        0            0        0

      Other                                         0             0                0        0            0        0

     Total                                          2             1                0        0            0        1

   Source: OIG analysis of Unit-submitted documentation, FYs 2010–2012.




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                                       31
                     APPENDIX F
                     Medicaid Fraud Control Unit Referrals by Referral Source for
                     FYs 2010 Through 2012
                                         FY 2010                                FY 2011                      FY 2012

                                         Abuse &        Patient                 Abuse &    Patient           Abuse &    Patient
  Referral Source             Fraud                                     Fraud                        Fraud
                                          Neglect       Funds                    Neglect   Funds              Neglect   Funds
  Medicaid Agency –
  (Office of Quality
  Assurance) –
            30
  PI/SURS                          4              1           0             6         0         0        5         0         0
  Medicaid Agency –
  Attorney General                33            15             1           26         0         0       12         3         1
  State Survey &
  Certification                    0              0            0            0         0         0        0         0         0
  Other State
  Agencies                         0              0            0            0         0         0        1         0         0
  Licensing Board
                                  10              5            1            1         4         0        1         5         0
  Law Enforcement
                                   2              1            0            1         0         0        2         0         0
  Office of Inspector
  General                          2              0            0            2         0         0        0         0         0
  Prosecutors
                                   0              0            0            0         0         0        0         0         0
  Providers
                                   3              0            0            2         0         0        0         0         0
  Provider
  Associations                     0              0            0            0         0         0        0         0         0
  Private Health
  Insurer                          0              0            0            0         0         0        1         0         0
  Long Term Care
  Ombudsman                        0              0            0            0         1         0       0          0         0
  Adult Protective
  Services                         0              0            0            0         0         0        0         0         0
  Private Citizens
                                   9              2            0            8         4         0        4         2         0
  MFCU Hotline
                                   0              0            0            0         0         0        0         0         0
  Other
                                   0              0            0            0         0         0        0         1         0
    Total                         63            24             2           46         9         0       26        11         1

    Annual Total                                              89                               55                           38

 Source: OIG analysis of Unit-submitted documentation, FYs 2010–2012.




                     30
                       “PI” = “program integrity”; “SURS” = “Surveillance and Utilization Review
                     Subsystem.”

Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                              32
                   APPENDIX G
                   Unit Comments




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)   33
Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)   34
Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)   35
              July 16, 2014
              Page 4




                     Contrary to the statement in the r·eport, the Inspectors' employment contract and
              our employee time sheets, both of which were provided to the auditors, clearly show
              that Inspectors do not work either at night or on weekends. Accordingly, I conclude
              that our documentation is adequate to demonstrate when Inspectors are working in the
              MFCU and when they are not.


              Recommendation 5: Properly allocate vehicle costs.

             Response: I concur. Proper fiscal control is paramount. I appreciate the comment in
             the report that the Unit maintained proper fiscal control of its resources. We will
             continue to ensure that we do so by instituting a policy which provides that maintenance
             and depreciation expenditures related to the night and weekend usage of assigned
             state vehicles are not allocated to the federal grant.


             Recommendation 6:       Regularly communicate and coordinate with OIG to
             investigate and prosecute Medicaid fraud.

             Response: I concur. The Unit's working relationship with OIG, like all such
             relationships, has had both its good and less-than-good moments. For that reason
             alone, the relationship should be judged over time, not at a specific point in time.
             Communication and cooperation is a two-way street. Maintenance of good working
             relationships is a priority for us. As noted in the report, the working relationship has
             improved and we will do our part to continue the positive trend.

                    The Connecticut Medicaid Fraud Control Unit appreciates the professional and
             courteous efforts of your office during the review process. We look forward to a
             continued good working relationship.


                                                      Very truly yours,


                                                              /S/
                                                      CHRISTOPHER T. GODIALIS
                                                      Supervisory Assistant State's Attorney
                                                      Director- Medicaid Fraud Control Unit




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)                      36
                   ACKNOWLEDGEMENTS
                   This report was prepared under the direction of Brian T. Whitley, Regional
                   Inspector General for Evaluation and Inspections in the Kansas City
                   regional office.
                   Teresa Dailey served as the team leader for this study. Other Office of
                   Evaluation and Inspections staff who conducted the study include
                   Thomas Brannon, Jordan R. Clementi, and Rae Hutchison. Office of
                   Investigations staff who conducted the study include Dwight Q. Jackson.
                   Central office staff who provided support include Christine Moritz and
                   Sherri Weinstein.




Connecticut State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-07-13-00540)          37
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
